         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       EPA Should Further Connect the
       National Program Manager
       Process With Federal Guidance
       on Internal Control Risks
       Report No. 11-P-0067

       January 18, 2011
Report Contributors:                             Patrick Gilbride
                                                 Erin Barnes-Weaver
                                                 Karen L. Hamilton
                                                 Mary Anne Strasser
                                                 Stephanie Wake




Abbreviations

EPA          U.S. Environmental Protection Agency
FMFIA        Federal Managers’ Financial Integrity Act
FY           Fiscal year
GAO          U.S. Government Accountability Office
GPRA         Government Performance and Results Act of 1993
NPM          National program manager
OCFO         Office of the Chief Financial Officer
OCSPP        Office of Chemical Safety and Pollution Prevention
OMB          Office of Management and Budget
OW           Office of Water
PAR          Performance and Accountability Report
                       U.S. Environmental Protection Agency 	                                               11-P-0067
                                                                                                      January 18, 2011
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review
                                  EPA Should Further Connect the National
                                  Program Manager Process With Federal
We conducted this review to       Guidance on Internal Control Risks
determine how EPA’s national
program manager (NPM)             What We Found
process relates to the internal
control framework under the       EPA has not fully integrated FMFIA and the NPM processes. Activities conducted
Federal Managers’ Financial       per the NPM process support internal controls; however, EPA’s Office of the
Integrity Act (FMFIA). We         Chief Financial Officer did not connect these processes until midway through
determined whether the U.S.       fiscal year 2009 (in supplemental guidance) and in fiscal year 2010 guidance, and
Environmental Protection          integration efforts are still in their infancy. NPMs already conduct many activities
Agency (EPA) should               related to internal control, yet national program offices have separate processes
improve connections between       and staff responsible for each process. Having national program offices primarily
the two processes and whether     responsible for internal controls over national programs would streamline
NPMs and regions coordinate       reporting and lessen confusion among staff involved in both processes.
program management and
address risks and                 NPMs have not linked assessing and evaluating relevant risks associated with
vulnerabilities.                  achieving program objectives to internal control requirements. FMFIA requires
                                  managers to define program goals and identify key programs, complete a risk
Background                        assessment based on their priorities, and then establish controls to mitigate
                                  identified program risks. National program offices and regions do not appear to
FMFIA requires federal            completely understand the risk assessment internal control standard and how to
agency managers to annually       apply it to program operations. Without consistently conducting risk assessments,
evaluate and indicate whether     EPA lacks a sound, documented basis for reasonably assuring that programs
their agencies’ internal          implement effective internal controls consistent with federal internal control
controls comply with              standards. Additional training on risk assessment, including how to identify
prescribed standards. NPM         weaknesses, determining how to manage risks, and how to conduct necessary
guidance sets forth goals and     internal control reviews, should improve program management.
program priorities to support
compliance with the               What We Recommend
Government Performance and
Results Act of 1993.              We recommend that the Chief Financial Officer assign NPMs primary
                                  responsibility for FMFIA reporting on internal controls for national programs and
For further information,          rely on the lead regional coordinator process for input from the regions, and direct
contact our Office of             regional personnel to report on administrative and financial internal control
Congressional, Public Affairs     activities along with unique geographic and programmatic issues in regional
and Management at
(202) 566-2391.                   assurance letters. We also recommend that the Chief Financial Officer develop a
                                  training course on FMFIA and enhance the FMFIA intranet site by providing
To view the full report,          links to risk assessment guidance and completed products that offices could use as
click on the following link:      best practices. The Agency agreed with our recommendations and began taking
www.epa.gov/oig/reports/2011/
20110118-11-P-0067.pdf
                                  steps to address them.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL




                                         January 18, 2011

MEMORANDUM

SUBJECT:	              EPA Should Further Connect the National Program Manager Process
                       With Federal Guidance on Internal Control Risks
                       Report No. 11-P-0067


FROM:	                 Arthur A. Elkins, Jr.
                       Inspector General

TO:                    Barbara J. Bennett
                       Chief Financial Officer


The U.S. Environmental Protection Agency (EPA) Office of Inspector General issued this report
on the subject audit. This report contains findings that describe problems we identified and
corrective actions we recommend. This report represents our opinion and does not necessarily
represent the final EPA position. EPA managers will make final determinations on matters in this
report in accordance with established audit resolution procedures.

The estimated cost of this report, calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time, is $472,472.

Action Required

On November 22, 2010, your office provided comments to our report, and we discussed your
planned corrective actions and milestone dates on December 15, 2010. We believe your planned
corrective actions address the intent of each of our recommendations. As such, we plan to close
this assignment upon issuance of this final report. We have no objections to the further release of
this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Patrick Gilbride, Director for Audit, Risk and Program Performance Issues, at (303) 312-6969
or gilbride.patrick@epa.gov.
EPA Should Further Connect the National Program Manager                                                                     11-P-0067
Process With Federal Guidance on Internal Control Risks


                                  Table of Contents 


Chapters 

   1    Introduction .......................................................................................................       1         


                Purpose .......................................................................................................    1             

                Background .................................................................................................       1             

                Noteworthy Achievements...........................................................................                 4             

                Scope and Methodology..............................................................................                5             


   2    FMFIA and NPM Processes Not Integrated......................................................                               6         


                FMFIA and NPM Processes Have Common Elements ...............................                                       6

                Program Office Interpretations Vary on Degree of Integration ....................                                  8

                Regional Personnel Unclear on Assurance Letter Content .........................                                   9

                Conclusion...................................................................................................     10             

                Recommendations ......................................................................................            10             

                Agency Comments and OIG Evaluation......................................................                          10 


   3    Risk Assessment Internal Control Standard ..................................................                              12


                Risk Assessments Not Informing Program Reviews ...................................                                12 

                Conclusion...................................................................................................     14             

                Recommendations ......................................................................................            15             

                Agency Comments and OIG Evaluation......................................................                          15 


   Status of Recommendations and Potential Monetary Benefits..............................                                        16     




Appendices 

   A    Details on Scope and Methodology..................................................................                        17     


   B    Agency Response to Draft Report....................................................................                       20     


   C    Distribution .........................................................................................................    23     

                                             Chapter 1

                                             Introduction
Purpose
                  The U.S. Environmental Protection Agency’s (EPA’s) national program managers
                  (NPMs) develop annual guidance documents to define program priorities,
                  strategies, and performance measures in accordance with the Agency’s strategic
                  plan, annual plan and budget, and the Administrator’s priorities. We conducted
                  this review to determine how the NPM process relates to the internal control
                  framework under the Federal Managers’ Financial Integrity Act (FMFIA), and
                  whether the Agency should improve connections between the two processes. We
                  also determined whether NPMs and regional personnel coordinate program
                  management and whether this coordination addresses program risks and
                  vulnerabilities.

Background
                  EPA annually issues the Performance and Accountability Report (PAR)1 to
                  describe to the President, Congress, and the public the Agency’s environmental
                  program and financial performance during the fiscal year. The PAR also describes
                  progress in addressing management issues and accountability systems and
                  controls. The annual PAR satisfies a number of legislative reporting requirements,
                  including those of the Government Performance and Results Act of 1993 (GPRA)
                  and FMFIA. EPA’s Office of the Chief Financial Officer (OCFO) develops,
                  manages, and supports a goals-based management system for the Agency, which
                  includes preparing EPA’s strategic plan, annual budget and performance plan, and
                  the PAR. OCFO initiates both the FMFIA and NPM processes by providing
                  annual guidance to EPA managers. OCFO also reports results from each process,
                  such as information from FMFIA assurance statements and NPM performance
                  results, in the Agency’s annual PAR.

                  National Program Manager Process

                  GPRA requires the PARs, strategic plans, and annual performance plans to
                  facilitate results-oriented management. GPRA also requires agencies to clarify
                  their missions, set strategic and annual performance goals, and measure and report
                  on performance toward these goals. NPMs for each of EPA’s five national

1
 Effective for the fiscal year 2010 reporting period, EPA now uses an alternate reporting approach to the PAR. The
Agency financial report summarizes EPA’s financial results and presents its audited financial statements, and the
annual performance report presents detailed performance results as measured against targets established in EPA’s
annual plan and budget. For the purposes of our report, we will refer to the PAR, as it was the reporting approach in
place during the time we conducted our audit.


11-P-0067                                                                                                        1
            program offices issue annual guidance documents to initiate program planning
            and establish a relationship among annual operational measures, EPA’s annual
            budget, and long-term strategic goals. NPMs establish national goals for their
            respective programs and then evaluate and adjust national priorities as new data
            on emerging environmental issues become available. EPA uses this process that
            NPMs undertake while developing their guidance documents (hereafter referred
            to as the “NPM process”) to support compliance with GPRA requirements. NPM
            annual guidance focuses on three areas:

               1.	 Developing NPM priorities, strategies, and associated measures
               2.	 Reporting results for prior year performance commitments
               3.	 Negotiating agreements for performance commitments

            NPMs establish these priorities, strategies, measures, and commitments through a
            process of coordination and negotiation with regional personnel. EPA adopted a
            methodology in 1984 to provide regions an organized, consistent, and effective
            role in all major phases of Agency decisionmaking through lead regional
            coordinators. Lead regional coordinators act as conduits between the regional
            personnel and the NPMs to ensure ongoing regional input to EPA’s national
            program offices. Lead regional coordinators consolidate information from
            regional personnel on priorities, emerging issues, weaknesses, and other issues for
            NPMs to consider during their process and for national program offices’ FMFIA
            assurance letters.

            OCFO issues technical guidance for national program offices to follow as they
            prepare annual NPM guidance on Agency priorities. OCFO’s Technical Guidance
            on FY 2010 National Program Manager Guidance and Annual Commitment
            Process in Measures Central requires managers to establish program priorities
            and performance measures in support of GPRA requirements and serves as an
            overall program management tool. This NPM process aims to support Agency
            program management and decisionmaking by:

               •	 Improving the quality, consistency, and reliability of measures and related
                  data and reporting
               •	 Analyzing progress toward results in midyear reporting to aid in 

                  negotiating draft performance commitments 

               •	 Engaging with state and tribal partners and stakeholders

            EPA’s Management Integrity Process

            FMFIA requires federal agency managers to establish internal accounting and
            administrative controls in accordance with standards prescribed by the U.S.
            Government Accountability Office (GAO) in Standards for Internal Control in
            the Federal Government. FMFIA also requires federal agency managers to
            annually evaluate their compliance with GAO’s standards and issue a statement of
            full compliance or noncompliance with FMFIA (an “assurance letter”). If the


11-P-0067                                                                                  2
            Administrator determines that the Agency has not fully complied with GAO’s
            standards, the Administrator must report internal weaknesses and a corresponding
            corrective action plan in the Administrator’s assurance statement.

            Office of Management and Budget (OMB) Circular A-123 describes federal
            managers’ responsibilities for internal control and provides guidance to meet
            FMFIA requirements. The circular states that internal control should be “an
            integral part of the entire cycle of planning, budgeting, management, accounting,
            and auditing” and “provide continual feedback to management.” It also advises
            agencies to combine their FMFIA reporting efforts with other ongoing efforts to
            improve effectiveness and accountability.

            GAO’s Standards for Internal Control in the Federal Government provide an
            overall framework for establishing and maintaining internal control and for
            identifying and addressing major performance and management challenges and
            areas at greatest risk of fraud, waste, abuse, and mismanagement (table 1).

            Table 1: GAO’s Standards for Internal Control in the Federal Government
                                   This standard establishes and maintains an environment throughout
                                   the organization that sets a positive and supporting attitude toward
                 Control
                                   internal control and conscientious management. Internal control and
               environment
                                   conscientious management includes establishing goals, objectives,
                                   and performance measures at both the entity and activity levels.
                                   A precondition to risk assessment is the establishment of clear,
                                   consistent agency objectives. The internal control risk assessment
                                   process includes assessing risks the agency faces from both internal
                   Risk
                                   and external sources. Management should comprehensively identify
                assessment
                                   risks and should consider all significant interactions between the entity
                                   and other parties, as well as internal factors at both the entity and
                                   activity levels.
                                   Control activities are the policies, procedures, techniques, and
                                   mechanisms that implement management’s direction to achieving
             Control activities    goals. Internal control activities help ensure that management’s
                                   directives are carried out.
                                   This standard includes data and information (performance and
             Information and       financial) to determine whether the organization meets its goals and
             communications        objectives and maintains accountability over resources.
                                   Internal control monitoring should assess the quality of performance
                Monitoring         over time and ensure that audits and other review findings are
                                   promptly resolved.
            Source: OIG summary of GAO’s Standards for Internal Control in the Federal Government,
            GAO/AIMD-00-21.3.1, November 1999.

            According to OMB Circular A-123, risk assessment forms the foundation of any
            effective system of internal controls. Risk assessment includes identifying and
            analyzing relevant risks associated with achieving goals and objectives, such as
            those defined in strategic and annual performance plans developed under GPRA.
            After an organization identifies significant areas of risk, it should develop control


11-P-0067                                                                                            3
            activities to minimize or eliminate those risks. Risk analysis generally includes
            estimating the risk’s significance, assessing the likelihood of its occurrence, and
            deciding how to manage the risk and what actions to take.

            OCFO initiates the FMFIA reporting process by providing annual guidance to
            EPA managers. OCFO’s FMFIA guidance specifies coordination and
            communication between NPMs and regional offices. New for fiscal year (FY)
            2010, OCFO issued the guidance in two parts: the first part focused on financial
            activities and the second part focused on program operations. OCFO intended the
            second part to achieve more systematic and rigorous reviews of internal controls
            over program operations and establish clear regional and national program roles
            and responsibilities for reviewing controls and sharing information between
            offices.

Noteworthy Achievements
            OCFO has taken a number of steps to improve EPA’s management integrity
            program. In FY 2010, OCFO issued separate FMFIA guidance for financial and
            program operations. The program guidance addressed how to conduct internal
            control reviews over program operations, and also clarified responsibilities
            between program offices and regions. In addition, OCFO hired a contractor in
            FY 2009 to conduct FMFIA program compliance reviews in a sample of offices
            to determine necessary changes to improve FMFIA implementation. OCFO
            completed additional reviews in FY 2010 in Regions 9 and 10, and will continue
            these reviews on a rotating basis as part of OCFO’s oversight of the management
            integrity program.

            OCFO has also made efforts to show the relationship between the NPM process
            and FMFIA by cross-referencing them in each guidance document. The FY 2010
            FMFIA program guidance mentions the NPM process, while the FY 2011
            Technical Guidance on the NPM Guidance mentions the FMFIA process for the
            first time. OCFO’s Technical Guidance on FY 2012 National Program Manager
            Guidance and Annual Commitment Process notes that annual NPM guidance
            documents serve as an important internal control for Agency programmatic
            operations because the documents set forth program priorities and key actions for
            the upcoming year. OCFO also encouraged NPMs to discuss their annual program
            guidance as a key internal control in preparing FY 2011 annual letters of
            assurance to the Administrator. National program offices and regions in our scope
            acknowledged connections between the two processes and have taken initial steps
            to integrate them.

            Finally, we observed strong communication and coordination between national
            program offices and regions. They establish national program priorities through
            an inclusive process involving states, tribes, and other stakeholders.




11-P-0067                                                                                    4
Scope and Methodology
            We conducted this audit in accordance with generally accepted government
            auditing standards. Those standards require that we plan and perform the review
            to obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our review objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our review objectives.

            We focused our review on FMFIA and NPM process implementation by the
            Office of Water (OW), Office of Chemical Safety and Pollution Prevention
            (OCSPP), and Regions 5 and 9; we also reviewed Regions 3 and 6 because they
            house, respectively, the OW and OCSPP lead regional coordinators. We also
            focused our review on guidance provided by OCFO to EPA managers.

            We reviewed OCFO’s FMFIA guidance for FYs 2008, 2009, and 2010, and
            OCFO’s Technical Guidance on the National Program Manager Guidance and
            Annual Commitment Process in Measures Central for FYs 2010, 2011, and 2012.
            We also reviewed FMFIA assurance letters for FYs 2008 and 2009 for OW,
            OCSPP, and Regions 3, 5, 6, and 9; NPM guidance documents for FYs 2008,
            2009, and 2010; and program review strategies for FY 2010.

            We interviewed OCFO, OW, OCSPP, regional, and other EPA personnel to
            understand, document, and analyze EPA’s FMFIA and NPM processes and
            coordination between national program offices and regions.

            We are issuing this report to bring to the Agency’s attention findings that could
            influence FMFIA and NPM reporting in FY 2011.

            Appendix A provides additional information on our scope and methodology.




11-P-0067                                                                                   5
                                   Chapter 2
            FMFIA and NPM Processes Not Integrated
             The Agency has not fully integrated FMFIA into the NPM process. FMFIA
             requires federal agency managers to assess financial and programmatic
             operations, establish controls, and ensure those controls are effective. NPM
             guidance sets forth goals and program priorities to support compliance with
             GPRA and align Agency long-term strategic goals and annual budgetary decisions
             with detailed implementation instructions. Activities conducted per the NPM
             process support internal controls. EPA has made efforts to improve management
             integrity implementation for program operations and is currently working to
             clarify links between the two processes. However, OCFO has segregated
             information that offices should use in both processes and integration efforts are in
             their infancy. Having national program offices primarily responsible for internal
             controls over national programs would streamline reporting and lessen confusion
             among staff involved in both processes.

FMFIA and NPM Processes Have Common Elements
             OMB Circular A-123 provides guidance to federal managers on implementing
             FMFIA to improve the accountability and effectiveness of federal programs and
             operations by establishing, assessing, and reporting on internal control. The
             circular states, “the requirements of FMFIA serve as an umbrella under which
             other reviews, evaluations and audits should be coordinated and considered to
             support management’s assertion about the effectiveness of internal control.” The
             circular lists a number of statutory requirements and government-wide initiatives,
             including GPRA, which should be considered as part of an agency’s internal
             control framework and should be integrated to meet the requirements of FMFIA.
             Internal control is a major part of successful agency management and comprises
             the plans, methods, and procedures used by an agency to meet its mission, goals,
             and objectives. OMB Circular A-123 states that by incorporating internal control
             into its planning and implementation activities, an agency fulfills federal
             expectations for performance-based management.

             EPA establishes and communicates goals and priorities through the NPM process
             to support GPRA compliance. Functional statements note how national program
             offices have responsibility for EPA’s program integrity and performance:

                •	 OW: The Assistant Administrator for Water serves as principal advisor to
                   the Administrator and provides Agency-wide policy, guidance, and
                   direction for the Agency’s water programs. Primary responsibilities
                   include evaluating regional activities.




11-P-0067                                                                                    6
                         •	 OCSPP: The Assistant Administrator for Chemical Safety and Pollution
                            Prevention is responsible for establishing Agency strategies and
                            developing and operating Agency programs and policies for assessment
                            and control of pesticides and toxic substances. Responsibilities include
                            monitoring, evaluating, and assessing program operations in EPA
                            headquarters and regional offices.

                    While organizationally regional personnel report to Regional Administrators,
                    regional personnel are accountable to national program offices for negotiating
                    performance commitments and reporting performance results. Regional personnel
                    raise emerging issues to national program offices at periodic NPM planning
                    meetings. Regional personnel also provide FMFIA input to national program
                    offices through the lead regional coordinator process. Thus, NPMs manage national
                    programs and oversee regional programs through these existing mechanisms.

                    Our review found that NPMs already conduct many of the steps outlined in
                    OCFO’s FY 2010 FMFIA guidance as shown in bold text and checkmarks in
                    table 2. Table 2 also notes internal control standards to which OCFO’s guidance
                    steps pertain.

Table 2: FY 2010 FMFIA guidance outline and related internal control standards
          Internal control                                                                                                  NPM
  Step        standard                                     Task                                                           activities
 I. ESTABLISH A FOUNDATION FOR INTERNAL CONTROL REVIEWS
    1           Control
              environment          Identify key programs and operations.
                                   Develop a Program Review Strategy for each key program and
                                   operation. Among other things, the strategy will identify potential risks
    2            All GAO           associated with the program; rank the risks; and outline the internal
                standards          controls (e.g. policies, procedures, or measures) in place to
                                   mitigate the risks.
                                   Prepare a Multiyear Plan for reviewing internal controls over program
                                   operations. Based on risk levels assigned, prepare a Multiyear Plan that
    3       Control activities     establishes priorities for assessing the internal controls over
                                   programmatic operations.
 II. CONDUCT FY 2010 REVIEWS
    1       Control activities     Conduct reviews, testing, or monitoring activities planned for FY
             and monitoring        2010.
    2       Control activities     Determine corrective actions.
            Information and
    3       communication          Document your findings.
 III. REPORT FY 2010 FINDINGS
              Monitoring and       Provide status updates for midyear Management Integrity Report and
    1        information and       the Agency “Update” meeting.
             communication
             Information and       Develop FY 2010 assurance letter to the Administrator.
    2        communication
             Information and
    3        communication         Prepare for end-of-year “Decision Meeting.”
Source: OIG analysis of an outline provided by OCFO’s associate staff director for accountability within the Office of Planning,
Analysis, and Accountability, on June 30, 2010.




11-P-0067                                                                                                                          7
            Table 2 illustrates how the NPM process relates to the FMFIA process, and how
            information from one process can inform the other. However, EPA has not fully
            integrated FMFIA into the NPM process. OCFO’s guidance documents only
            recently referenced each process. OCFO has reoriented its FMFIA process to
            include program operations, and OCFO, national program offices, and regional
            personnel considered FY 2010 a building year in which to clarify links between
            the two processes.

Program Office Interpretations Vary on Degree of Integration
            While NPMs, management integrity advisors, regional personnel and planners,
            and OCFO acknowledged links between the two processes, we found variations in
            the extent to which regions and offices understand the relationship between the
            FMFIA and NPM processes and confusion as to what to report. OW managers
            have different views as to the linkages between the two processes—one saw no
            link, and the other had fully integrated each process. However, most regional
            program personnel continue to struggle with how FMFIA relates to the NPM
            process. OCFO said this confusion derives largely from an acknowledged lack of
            familiarity with FMFIA terms and framework, and OCFO is striving to improve
            understanding.

            Staff stated they had not considered the NPM guidance as a tool to identify
            program vulnerabilities. However, OCFO believes the NPM process is the
            primary control for program management. We agree and note the following
            elements of the NPM process relevant to FMFIA:

               •	 Final NPM guidance from the national program offices contains
                   information that could be included in the FMFIA Midyear Status Report to
                   the Administrator.
               • 	 Information published in national program offices’ midyear reports on
                   commitments could be considered for input from the lead regional
                   coordinators to NPMs for FMFIA assurance letters.
               • 	 Managers’ discussions of program priorities, vulnerabilities, and other
                   issues during the NPM process include issues that offices should assess for
                   internal control deficiencies and, if necessary, report in FMFIA assurance
                   letters. We noted two such examples: (1) a national water division
                   directors meeting in October 2009 addressed water quality monitoring,
                   new administration priorities, the Urban Waters Initiative, and surface
                   mining operations; and (2) OCSPP division directors discussed with us
                   significant management issues such as the Toxic Substances Control Act
                   and requirements for polychlorinated biphenyls in caulk.




11-P-0067                                                                                 8
Regional Personnel Unclear on Assurance Letter Content
                 By not linking the FMFIA and NPM processes, regional personnel remain unclear
                 as to how to report certain issues in assurance letters. For example, our review of
                 FY 2009 regional FMFIA assurance letters found inconsistencies in how regional
                 personnel reported geographic initiatives. Geographic initiatives are programs or
                 activities unique to a particular EPA region (e.g., the Chesapeake Bay and the
                 Great Lakes programs are tasked with protecting and restoring large aquatic
                 ecosystems). OCFO said that reporting responsibilities on geographic initiatives
                 varies by NPM. Of the four regions’ assurance letters we reviewed, we found that:

                     •	 Region 3 briefly mentioned the Chesapeake Bay.
                     •	 The Great Lakes National Program Office issued its own assurance letter
                        through Region 5’s annual FMFIA process.
                     •	 Regions 6 and 9 did not mention initiatives within their purview: the Gulf
                        of Mexico, United States-Mexico Border Water Quality, or the Pacific
                        Islands Waters.

                 As we reported in 2009,2 because OCFO previously focused FMFIA primarily on
                 financial and administrative activities, staff were confused about FMFIA roles
                 and reporting. Beginning in FY 2009, OCFO expanded EPA’s FMFIA reporting
                 from strictly financial and administrative activities to include program operations
                 and, in FY 2010, clarified regional and national program roles and
                 responsibilities. During this transition, regional offices remain confused as to
                 what to report on and how. Regional comptrollers noted improvements in this
                 year’s OCFO guidance, but said that program personnel remain unclear on their
                 FMFIA responsibilities.

                 OCFO should require NPMs to summarize national program issues in their
                 assurance letters, including information NPMs obtain on regional program
                 implementation and performance. Regional FMFIA assurance letters would then
                 focus on administrative and financial internal control activities. OCFO has also
                 historically administered the FMFIA and NPM processes separately and has only
                 recently viewed the two as complementary. Program offices and regional
                 personnel have considered the NPM process a separate task distinct from FMFIA,
                 even though many NPM process activities support FMFIA.

                 Both the Administrator and Chief Financial Officer have issued statements on
                 how EPA should view the management integrity process as a year-long process
                 instead of a once-yearly exercise to complete assurance letters. In her February 2,
                 2010, memorandum, the Administrator stated that to improve management
                 integrity for FY 2010, everyone involved should view it as a year-long process—a

2
 We issued two reports on the administrative focus of FMFIA guidance and the confusion regional and program
office personnel had with FMFIA requirements: EPA Should Use FMFIA to Improve Programmatic Operations,
Report No. 09-P-0203, August 6, 2009; and EPA's Office of Research and Development Could Better Use the
Federal Managers' Financial Integrity Act to Improve Operations, Report No. 09-P-0232, September 15, 2009.


11-P-0067                                                                                                 9
                  significant departure from how EPA has traditionally carried out management
                  integrity activities. Lastly, the Agency has committed to adopting a “OneEPA”
                  approach to accomplishing its environmental protection mission.3 By making
                  NPMs responsible for internal controls and FMFIA reporting for national
                  programs (working through Lead Regional Coordinators to do so), the Agency
                  would support OneEPA and foster more communication between regional
                  personnel and NPMs.

Conclusion
                  EPA would increase its ability to maximize its resources, achieve its
                  commitments, and meet its goals by clarifying links between the NPM and
                  FMFIA processes. Separate activities and reporting related to the FMFIA and
                  NPM processes potentially result in duplicative activities under each. NPMs
                  already conduct many of the activities related to FMFIA in the NPM process, yet
                  national program offices have separate processes and staff responsible for each
                  process. Having NPMs primarily responsible for reporting on internal controls
                  over national programs would streamline reporting and lessen confusion among
                  staff involved in both the NPM and FMFIA processes.

Recommendations
                  We recommend that the Chief Financial Officer:

                           2-1	     Assign NPMs primary responsibility for FMFIA reporting on
                                    internal controls for national programs and rely on the lead
                                    regional coordinator process for input from the regions.

                           2-2	     Direct regional personnel to report on administrative and financial
                                    internal control activities along with unique geographic and
                                    programmatic issues in regional assurance letters.

Agency Comments and OIG Evaluation
                  In recommendation 2-1 of our draft report, we stated that OCFO should “Use
                  existing activities under the NPM guidance process to require that NPMs in National
                  Program Offices complete FMFIA reporting on program performance, risks, and
                  emerging issues (including those related to regional program performance and/or
                  feedback NPMs receive from regional program implementers).” In its response,
                  OCFO suggested that we revise the recommendation to “require NPMs to address
                  in their NPM Guidance, as appropriate, the vulnerabilities and weaknesses
                  identified through their FMFIA responsibilities.” We disagreed with OCFO’s
                  suggested revision to recommendation 2-1 because it did not incorporate using the

3
  As described in EPA’s Open Government Plan, the “OneEPA” tool is in place to promote transparency by
initiating discussion, capturing suggestions, and collecting reactions both within the Agency and from the public.


11-P-0067                                                                                                        10
            NPM framework along with the lead regional coordinator process. National
            program offices should integrate evaluating internal controls into all program
            management activities using these processes. After reviewing OCFO’s response,
            we clarified our report to focus on the entire NPM framework (i.e., developing
            program priorities, strategies, and performance commitments linked to strategic
            and budget planning), rather than specific annual NPM guidance documents. We
            met with OCFO on December 15, 2010, and agreed upon the current
            recommendation. We also discussed OCFO’s planned corrective actions and
            milestone dates, such as connecting FMFIA and the NPM processes in its
            FY 2012 NPM guidance and upcoming FY 2011 FMFIA guidance. OCFO’s
            planned FY 2011 FMFIA guidance will reinforce the role of NPMs and the lead
            regional coordinator process.

            On recommendation 2-2, OCFO responded that it should continue to direct
            regions to address regional aspects of key national programs to ensure Regional
            Administrator-level accountability. We agree and discussed this with OCFO on
            December 15, 2010, and added text to recommendation 2-2.

            We believe our recommendations will provide national program offices a more
            unified perspective and a means to gauge program priorities, weaknesses, and
            emerging areas across all regions. This approach will also ensure regional
            accountability on unique geographic and programmatic issues. OCFO will verify
            its planned corrective actions to address recommendations 2-1 and 2-2 in FY 2011
            program compliance reviews. We believe OCFO’s planned corrective actions
            address the intent of our recommendations. Appendix B includes OCFO’s full
            response.




11-P-0067                                                                                11
                                    Chapter 3

            Risk Assessment Internal Control Standard
              NPMs assess and evaluate relevant risks associated with achieving their program
              objectives through communication within the national program offices and with
              regional personnel and other stakeholders. However, offices have not linked these
              activities to internal control requirements. FMFIA requires managers to define
              program goals and identify key programs, complete a risk assessment based on
              their priorities, and then establish controls to mitigate identified program risks.
              National program offices and regional personnel do not appear to completely
              understand the risk assessment internal control standard and how to apply it to
              program operations. Additional training on risk assessment, including how to
              identify weaknesses, determining how to manage risks, and how to conduct
              necessary internal control reviews, should improve program management.

Risk Assessments Not Informing Program Reviews
              Risk assessment—a fundamental element in internal control—identifies and
              analyzes risks that might impede the achievement of organizational goals, such as
              goals defined in strategic and annual performance plans developed under GPRA.
              Agencies should analyze identified risks for their potential effect or impact and
              implement controls to minimize or eliminate the risks to achieve the internal
              control objectives of efficient and effective operations.

              OCFO’s FY 2010 FMFIA guidance requires all EPA programs to identify key
              programs and develop program review strategies that list and rank potential risks
              and related internal controls. The guidance also requires that all EPA programs
              prepare schedules, or multiyear plans, describing when offices plan to review
              internal controls for program operations. OCFO’s FY 2009 FMFIA guidance
              required all EPA programs to develop a multiyear review strategy (similar to the
              FY 2010 multiyear plan) and complete a checklist based on GAO’s Standards for
              Internal Control in the Federal Government that includes risk assessment.

              We found that not all national program offices and regions within our scope
              conduct risk assessments in accordance with GAO’s standards. Of the six
              FY 2009 assurance letters we reviewed, only OW reported that it conducted a risk
              assessment and used it to determine program reviews. Our interviews confirmed
              that in the course of program management activities and coordinating with
              regional personnel and other stakeholders, offices perform elements of risk
              assessments. Offices we reviewed do not, however, analyze risks for potential
              effects or impacts on the Agency, do not consider those assessments in the context
              of internal controls, and do not incorporate activities into FMFIA. While OCFO
              has taken steps to include programmatic operations in FMFIA reporting, Agency



11-P-0067                                                                                    12
                  personnel need training on internal control standards and terminology, and ways
                  to connect FMFIA to their program-level tasks and accomplishments. OCFO is
                  developing training but does not expect it to be ready until the FY 2011
                  management integrity reporting period.

                  OCFO’s FY 2010 FMFIA program guidance instructs offices to prepare program
                  review strategies that list and rank risks and vulnerabilities. OCFO assumes that
                  offices conducted risk assessments prior to completing program review strategies
                  so that risk information could be included. Offices have begun submitting
                  FY 2010 program review strategies, but our analysis of eight strategies indicates
                  that completing a strategy itself does not meet the intent of GAO’s standards. The
                  Agency cannot ensure that offices assess and analyze internal and external risks
                  simply because they submitted program review strategies, as shown in table 3.

Table 3: Program review strategy limitations in addressing risk assessment
 OCFO’s FY 2010 FMFIA guidance requires that program review strategies list and rank potential
 risks and related internal controls.

   OIG          All eight OW and OCSPP strategies that were available by August 2010 identified and
 comment        ranked at least one risk, but did not include any risk analysis. For example, in OW’s
                biosolids strategy, the risk of "insufficient monitoring data" does not have attendant control
                activities, monitoring, and information/communication relative to that specific risk. Instead,
                the strategy includes a random collection of material (e.g., one information/communication
                entry is to make its website more user friendly, but it is not clear what risk that addresses).
                OW’s biosolids strategy also includes a potential major risk related to the lack of exposure
                and toxicity data, but no apparent control activity to address that risk.

 Risk analysis generally includes estimating the risk’s significance, assessing the likelihood of its
 occurrence, and deciding how to manage the risk and what actions to take.

   OIG    OCSPP has not completed a risk assessment. Instead, OCSPP senior managers met to
 comment	 discuss and prioritize key risks to include in their program review strategies, half of which
          were administrative. OCSPP did not include backlogged chemical assessments under the
                                                              a             b
          Toxic Substances Control Act even though GAO and our office identified the backlog as a
          major management challenge for EPA.

                OW completed and included a risk assessment in its FY 2009 assurance letter, and its
                FY 2010 program review strategy included reviews that were already planned as a result of
                its risk assessment (i.e., ongoing reviews). One regional management integrity advisor said
                that regional water managers did not understand why OW selected the areas included in its
                strategy.
Source: OIG analysis of a sample of submitted FY 2010 program review strategies.
        a
            GAO, Environmental Protection Agency Major Management Challenges, GAO 09-434, March 4, 2009.
        b
            EPA OIG, EPA’s Fiscal Year 2010 Key Management Challenges, May 11, 2010.

                  These examples indicate that national program offices and regional personnel do
                  not fully understand FMFIA and risk assessment. This confusion stems from how
                  to apply internal control risk assessment to program management. Many EPA
                  personnel understand risk assessment as a scientific term used to assess risks to
                  human health and the environment. For example, one program office’s review


11-P-0067                                                                                                   13
            strategy identified as a program risk that “human health and the environment may
            no longer be protective”—a risk in a scientific sense. However, GAO’s Standards
            for Internal Control in the Federal Government defines internal control risk as
            barriers that might inhibit a program from achieving its objectives. In this case,
            protecting human health and the environment is the program objective, and the
            office did not identify internal control risks that prevent the program from
            achieving this objective. Offices also appear to not understand how to apply risk
            assessment to program operations because they have not connected internal
            control risk assessment and the NPM process. OCFO said it is providing more
            guidance and training on risk.

            Managers and staff we spoke with described a “language barrier” between what
            program staff understands about FMFIA and what management integrity staff
            understands about programmatic operations. While OCFO has taken steps to
            include programmatic operations in FMFIA guidance, Agency personnel need
            training on internal control standards and terminology, and ways to connect
            FMFIA to their program-level tasks and accomplishments. OCFO believes that
            offices conduct risk assessments and establish controls but do not identify them in
            FMFIA terms, and OCFO said it is working to address this language barrier.
            Offices could benefit from OCFO posting on its intranet tools such as the five-
            page overview of risk assessment (including step-by-step instructions and
            definitions) included in the contractor’s report on program compliance reviews
            (dated January 15, 2010) and highlighting on its intranet completed products
            (such as OW’s risk assessment) that other offices could use as examples. OCFO is
            developing training on GAO’s standards and how to incorporate FMFIA into
            daily program operations, and expects it to be ready for the FY 2011 management
            integrity reporting period.

            In a February 5, 2010, memorandum to all EPA Assistant and Regional
            Administrators, EPA’s Chief Financial Officer said that without adequate and
            effective internal controls integral to day-to-day activities, the Agency jeopardizes
            its mission by placing at risk the resources and authority entrusted to it to protect
            the nation’s environment and health.

Conclusion
            Without conducting risk assessments consistent with GAO’s Standards for
            Internal Control in the Federal Government, EPA cannot ensure it has
            appropriate internal controls in place or that programs operate effectively and
            efficiently. Additionally, EPA has not incorporated FMFIA into day-to-day
            activities, which limits how well offices identify and address program risks.
            Moreover, without adequate training, the learning curve for program staff on
            FMFIA and, conversely, for management integrity staff on environmental
            programs, could take time and resources from other Agency priorities.




11-P-0067                                                                                     14
Recommendations
            We recommend that the Chief Financial Officer:

                   3-1    Develop a training course on FMFIA that describes:
                             a. what internal control standards are, including definitions
                                and terminology;
                             b. how management integrity relates to program operations;
                                and
                             c. how to conduct risk assessments.

                   3-2    Enhance its management integrity intranet site by providing links
                          to risk assessment guidance and completed products (such as risk
                          assessments and program review strategies) that offices could use
                          as best practices or examples when completing their own products.

Agency Comments and OIG Evaluation
            OCFO concurred with recommendations 3-1 and 3-2 and expects to complete
            activities to address each recommendation in FY 2011. For example, OCFO
            sought and applied our feedback on FMFIA training (per recommendation 3-1)
            for management integrity advisors in June 2010. We concur with OCFO’s
            planned actions to address these recommendations. Appendix B includes OCFO’s
            full response.




11-P-0067                                                                               15
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1      Action Official           Date      Amount      Amount

    2-1       10    Assign NPMs primary responsibility for FMFIA             O       Chief Financial Officer
                    reporting on internal controls for national programs
                    and rely on the lead regional coordinator process
                    for input from the regions.

    2-2       10    Direct regional personnel to report on                   O       Chief Financial Officer
                    administrative and financial internal control
                    activities along with unique geographic and
                    programmatic issues in regional assurance letters.

    3-1       15    Develop a training course on FMFIA that describes:       O       Chief Financial Officer    09/30/11
                          a. what internal control standards are,
                             including definitions and terminology;
                          b. how management integrity relates to
                             program operations; and
                          c. how to conduct risk assessments.

    3-2       15    Enhance its management integrity intranet site by        O       Chief Financial Officer    09/30/11
                    providing links to risk assessment guidance and
                    completed products (such as risk assessments and
                    program review strategies) that offices could use
                    as best practices or examples when completing
                    their own products.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress



11-P-0067                                                                                                                                   16
                                                                                   Appendix A

                 Details on Scope and Methodology

We conducted our review to determine whether EPA links the FMFIA process with the NPM
process. We also reviewed whether NPMs and regional personnel coordinate program
management to address program risks and vulnerabilities. We chose two program offices for our
review: OW and OCSPP. OW is one of EPA’s largest program offices, has the largest budget,
and interacts extensively with regional personnel. OCSPP represents a contrast to OW as it is a
smaller office with a smaller budget. Further, because OCSPP is more headquarters focused, it
interacts differently with the regional personnel. We also selected two regions for review:
Regions 5 and 9. Region 5 is EPA’s largest regional office and has the largest budget. Region 9
is a midsized office with a midsized budget, and its staff played a significant role in the
development of EPA’s management integrity policy. Regions 5 and 9 both include states that
have significant water and pollution concerns. We also reviewed Regions 3 and 6 because they
house, respectively, the OW and OCSPP lead regional coordinators.

To address our objectives, we did the following:

       •	 Reviewed and summarized relevant laws, regulations, policies, and guidance on the
          management integrity (FMFIA) and the NPM processes.

       •	 Flowcharted the FMFIA and NPM process timelines to identify potential linkage
          points and areas of efficiency.

       •	 Analyzed information from the Office of Regional Operations (which oversees the
          lead regional coordinator process), OCFO, OW, OCSPP, Regions 5 and 9, and
          management integrity advisors for all offices in our scope

       •	 Gathered and analyzed information from lead regional coordinators for OW and
          OCSPP, located in Regions 3 and 6 respectively, to understand the lead region
          process and its role in management integrity reporting.

       •	 Conducted a literature search to review previous related audits and reports.

       •	 Reviewed OCFO’s FMFIA guidance for FYs 2008, 2009, and 2010.

       •	 Participated in OCFO conference calls and interviewed OCFO staff to discuss the
          FMFIA process and the FY 2010 requirement on program review strategies.

       •	 Reviewed assurance letters for OW, OCSPP, and Regions 5 and 9 for FYs 2008 and
          2009, and compared reporting between the headquarters program offices and regions.
          We also reviewed assurance letters for Regions 3 and 6. Our assurance letter reviews



11-P-0067                                                                                   17
            focused on program operations, as well as whether letters included evidence of
            completed internal control risk assessments.

       •	 Reviewed OW and OCSPP program review strategies, which OCFO required as part
          of the FY 2010 FMFIA process.

       •	 Reviewed OCFO’s Technical Guidance on FY 2010 National Program Manager
          Guidance and Annual Commitment Process in Measures Central, as well as OW and
          OCSPP NPM guidance for FYs 2008, 2009, and 2010.

       •	 Conducted interviews with NPM and regional planners, regional comptrollers, office
          directors, and other program and regional staff to understand, document, and analyze
          the FMFIA process, the NPM process, and coordination between national program
          offices and regional personnel. These interviews included briefings with NPMs from
          OW and OCSPP, who explained processes they use to develop annual NPM guidance
          documents and stakeholders with whom they coordinate on performance targets.

In FY 2009, OCFO hired Industrial Economics, Inc., to assess the effectiveness of EPA’s
management integrity program and to identify how EPA program and regional offices can
improve FMFIA implementation. We reviewed Industrial Economics, Inc.’s, final report, dated
January 15, 2010, as it included offices in our project scope as well as recommendations to
OCFO that were similar to those resulting from our own interviews with Agency personnel.

Prior Audit Coverage
The OIG reviewed the Agency’s FMFIA implementation in two reports issued in 2009:

       •	 In EPA Should Use FMFIA to Improve Programmatic Operations, Report
          No. 09-P-0203, issued August 6, 2009, we determined whether EPA offices
          integrated internal control standards under FMFIA into their programmatic
          operations. We also determined whether EPA offices use available GAO guidance to
          develop and monitor their internal controls. We found that because OCFO did not
          require—and program and regional offices did not evaluate and report on—
          compliance with GAO’s standards in FY 2008, EPA risked not fully complying with
          FMFIA. We also observed that the FMFIA process emphasized administrative and
          financial reporting over programmatic performance. We made five recommendations
          and are monitoring corrective actions OCFO has undertaken to address all
          recommendations.

       •	 In EPA’s Office of Research and Development Could Better Use the Federal
          Managers’ Financial Integrity Act to Improve Operations, Report No. 09-P-0232,
          issued September 15, 2009, we determined whether the Office of Research and
          Development had a systematic strategy to establish, review, and monitor internal
          controls. We also determined what the Office of Research and Development’s
          internal control strategy should contain to account for risks in meeting program goals.
          We found that the Office of Research and Development has several opportunities for


11-P-0067                                                                                    18
            improving the accountability and effectiveness of federal programs and operations to
            better accomplish FMFIA as intended. We made three recommendations and are
            monitoring corrective actions the Office of Research and Development has
            undertaken to address all recommendations.




11-P-0067                                                                                    19
                                                                                   Appendix B

                  Agency Response to Draft Report
                                     November 19, 2010

MEMORANDUM

SUBJECT:      Response to draft Audit Report EPA Should Further Integrate National Program
              Manager Guidance with Federal Guidance on Internal Control Risks
              (Project No. OA-FY09-1003)

FROM:         Barbara J. Bennett //s//
              Chief Financial Officer

TO:           Melissa M. Heist
              Assistant Inspector General for Audit

       We appreciate the opportunity to respond to the draft Audit Report cited above.
Throughout this review OIG has kept OCFO involved and informed, and we believe this has
been very constructive. In particular, thank you for taking time to discuss this report with OPAA
managers on November 17. I would like to provide several general comments on the conclusions
and recommendations presented in this draft audit report. In addition, I have asked Kathy
O’Brien to send you a copy of the report annotated with our more detailed comments on specific
statements. We appreciate your consideration of our comments and suggestions.

Overall Comments – Link Between NPM Guidance and FMFIA

        As you know, OCFO has taken a number of steps over the past year to clarify and
strengthen the Agency’s internal controls over programmatic activities, including highlighting
the connections between Management Integrity (FMFIA) and processes such as the annual NPM
guidance. In our technical guidance for both FMFIA and NPM Guidance, we call attention to the
importance of identifying program risks and vulnerabilities, including obtaining input through
the Lead Region process.

        Our primary concern with this draft audit is the confusion regarding the purpose of NPM
Guidance and the link between FMFIA and NPM Guidance -- a critical concept central to the
audit. The primary purpose of NPM Guidance is to operationalize the program priority decisions
made in developing the Agency’s Strategic Plan and Annual Plan and Budget, thereby
supporting the Agency’s compliance with GPRA. On the other hand, Annual Management
Integrity guidance is the primary means to facilitate communication between NPMs and regions
for identifying program risks, vulnerabilities, and controls. In this report, you urge OCFO to
more fully “integrate FMFIA into the NPM Guidance.” We believe that FMFIA and the NPM
Guidance, while related, are separate, complementary processes. We do not view FMFIA as
something to be incorporated into the Guidance; on the contrary, we view the NPM Guidance
process as one control or mechanism by which the Agency implements FMFIA.


11-P-0067                                                                                    20
        We agree with the observation that some staff and managers at the national and regional
levels still struggle with relating their day-to-day activities to complying with FMFIA. There are
a number of reasons for this, including lack of familiarity with FMFIA terminology and the
historical view of FMFIA as a financial administrative process. We have made progress and will
continue to address these gaps in understanding through on-site reviews, meetings with staff and
managers, and technical guidance to implement both Management Integrity and the NPM
process. Also, our online Management Integrity Training, to be released in FY 2011, will help
increase this understanding.

Comments on Recommendations

Recommendation 2-1. Use existing activities under the NPM guidance process to require that NPMs
in National Program Offices complete FMFIA reporting on program performance, risks, and
emerging issues (including those related to regional program performance and/or feedback
NPMs receive from regional program implementers).

      Based on the November 17 discussion, we are suggesting revised language to clarify this
recommendation:

       Require NPMs to address in their NPM Guidance, as appropriate, the vulnerabilities and
       weaknesses identified through their FMFIA responsibilities.

        We believe we have fulfilled the intent of this recommendation. OCFO’s Management
Integrity Guidance currently requires that NPMs “complete FMFIA reporting on program
performance, risks, and emerging issues.” Further, OCFO’s guidance to NPMs for developing
their FY 2011 and FY 2012 annual program guidance instructs the NPMs to seek input from
regions, through the Lead Region process, on program risks, vulnerabilities, and actions to
mitigate program risks, and to incorporate these, as appropriate, in their annual letters of
assurance. We believe these steps make the appropriate connection between the two processes
and, therefore, address this recommendation.

Recommendation 2-2 Direct regional personnel to report on administrative and financial
internal control activities in regional assurance letters.

       OCFO requires this reporting now, and also requires that regions discuss their internal
controls as implementers of national programs.

        We agree that NPMs have responsibility for identifying and mitigating risks that threaten
programs at a national level. Through the Lead Region process, NPMs receive regions’
perspectives on national program risks. We continue to maintain, however, that regions have
clear roles for implementing national programs in their regions and, in certain cases,
implementation responsibilities specific to a region (e.g., a number of geographical initiatives).
OCFO believes we should continue to direct regions to address regional aspects of key national
programs in their internal control assessments, in addition to administrative and financial
controls. All relevant activities should be addressed in regions’ assurance letters.



11-P-0067                                                                                      21
Recommendation 3-1 Develop a training course on FMFIA that describes (a) what internal
control standards are, including definitions and terminology; (b) how management integrity
relates to program operations; and (c) how to conduct risk assessments.

Recommendation 3-2 Enhance its management integrity intranet site by providing links to risk
assessment guidance and completed products (such as risk assessments and program review
strategies) that offices could use as best practices or examples when completing their own
products.

       We agree in general that risk is a subject needing further clarification for Agency staff
unfamiliar with its application in FMFIA.

        OCFO’s online training for management integrity advisors and Agency managers
(currently in development) will address the topics enumerated in the recommendation, including
risk. These courses will be available to MIAs, managers, and all Agency employees in FY 2011.
We may determine that supplemental training in some areas, such as risk assessment, may be
warranted after an evaluation of the initial training offerings.

        OCFO is in the process of reorganizing, updating, and enhancing its Management
Integrity website with links to guidance, policy, and tools on risk assessment. This work will be
completed in FY 2011. In addition, some of these aids/links are embedded in OCFO’s online
training for the convenience of MIAs and managers.

         In summary, I believe that OCFO is already taking actions to address the intent of these
four recommendations to strengthen the Agency’s FMFIA program and to integrate the NPM
Guidance with FMFIA, and I would like to close this audit as expeditiously as possible. I
appreciate your consideration of our comments on the draft Audit Report. Please contact Debbie
Rutherford (202-564-1913), Director of OCFO’s Accountability Staff, to discuss these comments
further.

cc: 	   Patrick Gilbride, OIG
        Maryann Froehlich
        Joshua Baylson
        Kathy O’Brien
        Stefan Silzer




11-P-0067                                                                                      22
                                                                                 Appendix C

                                    Distribution
Office of the Administrator
Chief Financial Officer
Director, Office of Regional Operations
Assistant Administrator, Office of Water
Assistant Administrator, Office of Chemical Safety and Pollution Prevention
Regional Administrator, EPA Region 5
Regional Administrator, EPA Region 9
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of the Chief Financial Officer
Audit Followup Coordinator, Office of Water
Audit Followup Coordinator, Office of Chemical Safety and Pollution Prevention
Audit Followup Coordinator, EPA Region 5
Audit Followup Coordinator, EPA Region 9




11-P-0067                                                                               23
